BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

February 18, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Dana Sylvester Whitley v. R. Graham Jr., Warden
Our File: CA18-2227
Docket No. 20-6848

Dear Mr. Harris:
A Petition for Writ of Certiorari filed on December 22, 2020, has been received
by this office in the above-referenced case. Please be advised that, unless the Court
orders otherwise, Counsel for Respondent does not intend to respond to the petition.
Attached is the waiver and appearance form to be filed on behalf of the
Respondent.
Sincerely,
/s/
Carrie J. Williams
Assistant Attorney General
Criminal Appeals Division
CJW:jlc

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

Page 2
CC:

Dana Sylvester Whitley, #277914
Western Correctional Institution
13800 McMullen Hwy, SW
Cumberland, MD 21502

